<html>
<title> - GLOBAL SECURITY ASSESSMENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]



                         [H.A.S.C. No. 110-112]
 
                       GLOBAL SECURITY ASSESSMENT

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 13, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     


                  U.S. GOVERNMENT PRINTING OFFICE
45-130                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK E. UDALL, Colorado              MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              CANDICE S. MILLER, Michigan
NANCY BOYDA, Kansas                  PHIL GINGREY, Georgia
PATRICK J. MURPHY, Pennsylvania      MIKE ROGERS, Alabama
HANK JOHNSON, Georgia                TRENT FRANKS, Arizona
CAROL SHEA-PORTER, New Hampshire     BILL SHUSTER, Pennsylvania
JOE COURTNEY, Connecticut            THELMA DRAKE, Virginia
DAVID LOEBSACK, Iowa                 CATHY McMORRIS RODGERS, Washington
KIRSTEN E. GILLIBRAND, New York      K. MICHAEL CONAWAY, Texas
JOE SESTAK, Pennsylvania             GEOFF DAVIS, Kentucky
GABRIELLE GIFFORDS, Arizona          DOUG LAMBORN, Colorado
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                 Mark Lewis, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S


                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, February 13, 2008, Global Security Assessment.........     1

Appendix:

Wednesday, February 13, 2008.....................................    29
                              ----------                              

                      WEDNESDAY, FEBRUARY 13, 2008
                       GLOBAL SECURITY ASSESSMENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     2
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

    Cardillo, Robert, Deputy Director for Analysis, Defense 
      Intelligence Agency........................................     8
    Fingar, Dr. Thomas, Deputy Director of National Intelligence 
      for Analysis, Office of the Director of National 
      Intelligence...............................................     4
    Kringen, John A., Director for Intelligence, Central 
      Intelligence Agency........................................     8

                                APPENDIX

Prepared Statements:

    Fingar, Dr. Thomas...........................................    33

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Lamborn..................................................    81
                       GLOBAL SECURITY ASSESSMENT

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                      Washington, DC, Wednesday, February 13, 2008.
    The committee met, pursuant to call, at 10:03 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Welcome, ladies and gentlemen, to a rainy 
day. Nonetheless, we will get started. Welcome to the Armed 
Services Committee hearing on Global Security Environment.
    We are pleased to have with us today Dr. Thomas Fingar, 
Deputy Director of National Intelligence Analysis in the Office 
of the Director of National Intelligence (DNI); Mr. Robert 
Cardillo, Deputy Director for Analysis from the Defense 
Intelligence Agency (DIA); and Mr. John Kringen, Director of 
Intelligence for the Central Intelligence Agency (CIA).
    Gentlemen, we welcome you.
    We are entering a period where we hear from each of the 
leadership of the Defense Department, the leaders of Armed 
Services, Combatant Commanders as well, as they come before us 
to testify about their portion of the 2009 Defense budget. It 
is our job to consider their recommendations.
    This hearing is designed to provide a broad strategic 
context of the overall security environment facing our country 
as our committee considers those Defense budget requests. We 
have spent a great deal of time focusing on the wars in Iraq 
and Afghanistan, as you well know, but that doesn't mean we can 
afford to be any less vigilant regarding the rest of the world.
    It is important to remember that international security is 
a fluid situation. We must hedge against strategic surprise and 
at the same time work to identify trends that could have 
implications for our national security down the road. Early 
identification of those challenges is very, very important.
    We know that in the last 31 years we have had 12 military 
contingencies, four of which have been major in size, none of 
which was anticipated very far ahead. So while we fight today's 
wars in Iraq and Afghanistan, we need to be careful that we 
don't become too nearsighted and fail to see what might else be 
out there, and that is your job, to discuss that with us today.
    So, with that, gentlemen, we appreciate you being with us. 
And I ask that the remainder of my statement be placed in the 
record.
    And we will proceed after we hear from Mr. Hunter, please.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, and thanks for having 
this very important hearing.
    Gentlemen, I want to join the chairman in welcoming you 
this morning. What you produce and what your agencies produce 
is the basis upon which this committee and several other 
committees basically develop those systems and policies that 
together constitute the defense apparatus of this country. So 
your work is extremely important.
    And let me go over just a couple of areas that I think we 
need to look at, and I would hope you could talk directly to 
some of the questions that arise as a result of recent 
developments in several areas.
    One is that the Pentagon's 2007 report on Chinese military 
developments highlights China's growing power projection and 
strategic forces capabilities--in particular, their Blue Water 
Navy. They have got a lot of submarines under construction 
right now, a fairly large force. Some good stuff, some nuclear 
attack boats now being developed, as well as very capable 
diesel submarines. Their ballistic missile development and 
their counter-space and cyber capabilities, which particularly 
should concern us.
    It is clear that these capabilities would extend Chinese 
power well beyond a Taiwan Straits scenario. And my own 
knowledge of these developments tells me that the President's 
fiscal year 2009 budget request is insufficient to counter 
them.
    So I would like your assessment of the Chinese rationale 
for developing these particular capabilities and where they are 
in fielding robust capabilities, such as those mentioned. How 
are those programs moving and where do you expect them to go?
    As I mentioned last summer, Iran has taken innumerable 
steps to counter U.S. influences in the Middle East by 
supporting international terrorism, expanding its ballistic and 
anti-ship cruise missile arsenal, and testing U.S. military 
rules of engagement in the Straits of Hormuz. I also remain 
concerned about Iran's engagement in Afghanistan and Iraq, and 
I would appreciate your assessment of the extent of Iranian 
influence in those countries and what you see as their thinking 
behind their activities with respect to those countries.
    Over the last couple of months, many witnesses before the 
committee have remarked on the tenuous security situation in 
Pakistan, which is a critical partner in U.S. counterterrorism 
efforts. What is your assessment of the impact that Pakistani 
elections, to be held next week, will have on stability there? 
How would you characterize the presence of Taliban elements in 
the federally-administrated tribal areas (FATA)? And what 
effect are those elements having on the U.S. and coalition 
operations in Afghanistan?
    In terms of functional terms of concern, I note that it 
appears that state and nonstate actors may be posing additional 
nontraditional or asymmetric threats in some cases, increasing 
their cooperation with each other to the detriment of U.S. 
security interests. For example, more than 20 countries now 
have a ballistic missile capability, and that proliferation is 
occuring among both state and nonstate actors. For example, 
last week Iran tested a space-launch vehicle and wants to 
launch a satellite by next year.
    Wouldn't this technology transfer directly into a long-
range missile program? Could you comment on that? And what is 
your assessment of the relationship between state and nonstate 
actors in this area?
    We also face the ongoing challenge of technology transfer. 
You have got some foreign entities coming in now with massive 
amounts of money to acquire American defense companies with 
critical capabilities that can give the United States military 
a qualitative advantage over potential adversaries. Other 
entities are engaged in industrial espionage. I would like our 
witnesses to comment on this threat, and I would like you to 
comment on which countries or nonstate organizations work to 
illicitly acquire U.S. technology with military application 
through foreign ownership, control or influence, and what kind 
of capabilities do these entities possess.
    You know, I think this is going to be the challenge of the 
next 5 to 10 years as we see other nations, some of which could 
be described as having interests that are distinctly different 
from America's interests, with large amounts of cash, obtained 
through trade imbalances, now purchasing American technology 
companies, some of which deliver technology to the Department 
of Defense, some in critical areas.
    Do you agree that that is going to be a challenge for the 
future? And do you think that the current system that we have, 
this so-called Committee on Foreign Investment in the United 
States (CFIUS) review system, is adequate? Or do you think that 
commercial interests are dominating the process and preventing 
security interests from really engaging and working this 
problem and being the deciding factor as to whether or not such 
deals are allowed?
    A final example is the cyber security arena. Last year a 
cyber attack on Estonia raised the spectre of states enlisting 
nonstate actors to act as a proxy. The attacks against Estonia 
impacted communications, economic systems, and other 
infrastructure, which raises new concerns about the scope of 
potential hostile actions we might face. And the Estonia event 
is not an anomaly.
    Last year, the U.K. and Germany publicly raised concerns 
with Chinese activity in their national systems. And the United 
States itself has experienced impacts from cyber activity.
    As we continue our discussion of threats to U.S. national 
security interests, I think we have got to keep in mind that 
these challenges are increasing in complexity, diversity, and 
range. They require this committee's understanding of the 
global security equation and a continued effort to ensure that 
our forces have the necessary tools to protect and defend our 
security interests.
    So thanks a lot, gentlemen, for being with us this morning. 
I think that this is a very timely hearing, Mr. Chairman, and I 
look forward to the testimony.
    The Chairman. Certainly thanks to the gentleman for this 
statement.
    Dr. Fingar, we recognize you, and the gentlemen with you, 
as you wish to proceed.
    Dr. Fingar.

  STATEMENT OF DR. THOMAS FINGAR, DEPUTY DIRECTOR OF NATIONAL 
 INTELLIGENCE FOR ANALYSIS, OFFICE OF THE DIRECTOR OF NATIONAL 
                          INTELLIGENCE

    Dr. Fingar. Thank you, Mr. Chairman.
    Chairman Skelton, Ranking Member Hunter, members of the 
committee, we thank you for this invitation to provide an 
assessment of our threats to the nation's security.
    I am pleased to be accompanied today by DIA Deputy Director 
for Analysis Robert Cardillo and CIA Director of Intelligence 
John Kringen.
    As you requested, I will provide a brief overview of the 
threats and challenges examined in greater detail in a 
statement for the record, which we have submitted to the 
committee. I am pleased to note that many of the questions 
raised by Mr. Hunter are addressed in the opening statement, 
but we would be happy to explore them further in question and 
answer.
    Mr. Chairman, globalization has broadened a number of 
threats and challenges facing the United States. For example, 
as government, private sector, and personal activities continue 
to move to network operations and our digital systems add 
evermore capabilities, our vulnerability to penetration and 
other hostile cyber action grows.
    The nation requires more of our intelligence community than 
ever before. And, consequently, we need to draw upon the 
expertise and experience of analysts inside and outside the 
intelligence community.
    My remarks today and the statement for the record reflect 
the coordinated judgments of the intelligence community and the 
efforts of literally thousands of patriotic professionals from 
more than 16 agencies, many of whom serve in harm's way.
    Mr. Chairman, in order to reserve as much time as possible 
for your questions, I will focus on the following areas: the 
continuing global terrorist threat; weapons of mass destruction 
(WMD) proliferation, specifically the threat of Iran's nuclear 
activities; the cyber threat to the U.S. information 
infrastructure; the situation in Iraq and Afghanistan; and 
military modernization in Russia and China.
    Turning first to terrorism, al Qaeda and its terrorist 
affiliates continue to pose significant threats to Americans at 
home and abroad. And al Qaeda's central leadership is its most 
dangerous component. Using its sanctuary along Pakistan's 
northern border, al Qaeda has been able to maintain a cadre of 
skilled lieutenants capable of directing the organization's 
operations around the world.
    It has lost many of its senior operational planners over 
the years, but the group's adaptable decision-making process 
and its bench of skilled operatives have been able to identify 
effective replacements. It is now attempting to identify, 
recruit, train and position operatives for an attack on the 
homeland.
    We assess that al Qaeda's homeland plotting is likely to 
continue to focus on prominent political, economic and 
infrastructure targets designed to produce mass casualties, 
visually dramatic destruction, significant economic aftershocks 
and/or fear among our population.
    Al Qaeda's affiliates from Africa to Southeast Asia also 
pose a significant terrorist threat. Al Qaeda in Iraq, AQI as 
we refer to it, has been weakened during the past year, but it 
remains al Qaeda's most visible and capable affiliate. Another 
affiliate, al Qaeda in the Lands of the Islamic Maghreb, or 
AQIM, is the most active terrorist group in northwestern 
Africa. We assess it represents a significant threat to U.S. 
and European interests in the region.
    Other al Qaeda regional affiliates kept a lower profile in 
2007, but we judge that they remain capable of conducting 
attacks against U.S. interests.
    Homegrown extremists inspired by militant Islamic ideology 
but without operational direction from al Qaeda are an evolving 
danger, both inside the U.S. and to our interests abroad. 
Disruptive plotting last year in the United States illustrates 
the nature of this threat. In addition, our European allies 
continue to uncover new extremist networks plotting against the 
U.S. as well as targets in Europe.
    We turn to WMD proliferation. The ongoing efforts of nation 
states and terrorists to develop and/or acquire dangerous 
weapons and delivery systems constitute the second major threat 
to our safety. Over the past year, we have gained important new 
insights into Tehran's activities related to nuclear weapons 
and the community recently published a national intelligence 
estimate (NIE) on Iranian intent and capabilities in this area.
    The classified estimate is 140 pages long, has nearly 1,500 
source notes, and presents both our evidence and analytic 
tradecraft in meticulous detail. Because the two and a-half 
page unclassified summary has been widely misinterpreted and 
misconstrued, I welcome this opportunity to clarify some of its 
key findings. They include that Iran had a secret nuclear 
weapons program for many years that Tehran has never 
acknowledged and continues to deny. The program has three 
components: the production of fissile material, development of 
missiles to deliver nuclear weapons, and the design and 
development of the nuclear weapons themselves.
    The production of fissile material and missiles continues. 
Tehran halted weaponization and certain other covert activities 
in 2003 in response to international scrutiny and pressure, but 
at a minimum is keeping open the option to develop nuclear 
weapons. Iran continues to develop technical capabilities that 
could be applied to the production of nuclear weapons and we 
judge that it has the technical and industrial capability to 
produce nuclear weapons should it desire to do so.
    The estimate also addresses several other Iranian nuclear 
activities and we would be pleased to answer any questions that 
you may have about this NIE.
    Before leaving WMD proliferation, I must note North Korea. 
North Korea's nuclear weapons and missile programs threaten to 
destabilize a region that has known many great power conflicts 
and comprises some of the world's largest economies. Pyongyang 
has already sold ballistic missiles to several Middle Eastern 
countries and to Iran.
    We are concerned that North Korea might decide to sell 
nuclear weapons as well.
    Turning to the cyber threat, the U.S. information 
infrastructure, including telecommunications and computer 
networks and systems and the data that reside on them, is 
critical to virtually every aspect of modern life. As 
government, private sector and personal activities continue to 
move to network operations, as our digital systems add evermore 
capabilities, as wireless systems become even more ubiquitous, 
and as the design, manufacture and service of information 
technology moves overseas, our vulnerabilities continue to 
grow.
    Over the past year, cyber exploitation activity has grown 
more sophisticated, more targeted and more serious. The 
intelligence community expects these trends to continue.
    Turning to Iraq, the security situation in Iraq continues 
to show signs of improvement. Security incidents countrywide 
have declined significantly to their lowest level since the 
February 2006 Samara Golden Mosque bombing. Monthly civilian 
fatalities nationwide have fallen by over half in the past 
year.
    Despite these gains, however, a number of internal factors 
continue to undermine Iraq's security. Sectarian distrust is 
still strong throughout Iraqi society. AQI remains capable of 
conducting destabilizing operations and spectacular attacks, 
despite significant disruption of its networks. Intercommunal 
violence in southern Iraq has spread beyond clashes between 
rival militia factions. And while improving significantly over 
the past year, the ability of the Iraqi security forces to 
conduct effective operations independent of coalition forces 
remains limited.
    Bridging differences among competing communities and 
providing effective governance are critical to achieving a 
successful state and long-term solution. Though slow, progress 
is being made. We have seen economic gains and quality of life 
improvements for Iraqis, but improvements in security, 
governance and the economy are not ins in themselves. Rather, 
they are the means to restore Iraqi confidence in the central 
government, and of easing sectarian distrust.
    In 2007, the number of attacks in Afghanistan's Taliban-
dominated insurgency exceeded that of the previous year, in 
part because coalition and Afghan security forces undertook 
many more offensive operations. Efforts to improve governance 
and extend development were hampered by a lack of security in 
some areas and limitations in government capacity.
    Ultimately, defeating the insurgency will depend heavily on 
the government's ability to improve security, delivery 
effective governmental services and expand economic development 
and opportunity.
    The drug trade is one of Afghanistan's greatest long-term 
challenges. The insidious effects of drug-related criminality 
continue to undercut the government's ability to assert its 
authority, develop a strong rule-of-law-based system and 
rebuild the economy. Taliban groups operate in the poppy-
growing regions and gain some financial support through their 
ties to local traffickers.
    Turning briefly to Russian and Chinese military 
modernization, increases in defense spending have enabled the 
Russian military to begin to reverse the deep deterioration in 
its capabilities that began before the collapse of the Soviet 
Union. The military still faces significant challenges, for 
example, in demographic trends and health problems. In 
addition, conscription deferments erode available manpower and 
Russia's defense industry suffers from a loss of skilled 
personnel.
    China's military modernization program is shaped, in part, 
by the perception that a competent, modern military force is an 
essential element of great power status. Improving Chinese 
theater-range missile capabilities will put U.S. forces at 
greater risk from conventional weapons. In addition, Beijing 
seeks to modernize China's strategic nuclear forces to address 
concerns about the survivability of those systems.
    If present trends in the global development of counter-
space capabilities continue, Russia and China will have an 
increasing ability to target U.S. military, intelligence and 
navigation satellites to degrade our command and control 
systems and our ability to use effectively our precision weapon 
systems.
    Mr. Chairman, this summary has provided only a brief 
overview of the threats examined at greater length in our 
written statement, and it has omitted many of the others in 
order to leave more time for questions.
    My colleagues and I look forward to your questions and will 
answer as directly and concretely as possible in an 
unclassified setting.
    Thank you for your interest.
    [The prepared statement of Dr. Fingar can be found in the 
Appendix on page 33.]
    The Chairman. Certainly. Thank you, Doctor, and gentlemen, 
thank you.
    Doctor, in your opinion, as we view the world today, and as 
we view the readiness posture of our troops, what do you 
consider the most likely threat to our national security 
interests? I realize that is a crystal ball question, but in 
your considered professional judgment, Doctor.
    Dr. Fingar. Mr. Chairman, let me provide my view. I will 
divide it in two parts, and invite my colleagues, since it is a 
crystal ball question, and we would like you to have benefit of 
the perspective of all of us.
    I think the most likely threat is the terrorist threat. In 
part it is the determination and the skill of our terrorist 
adversaries, in part it is because asymmetric warfare is taken 
to its extreme on one end of the spectrum when an individual 
suicide bomber, willing to sacrifice himself or herself, can do 
terrible damage in crowded settings, in which the psychological 
effect may be even greater than the physical destruction.
    In terms of conventional military threats, I think the 
greatest danger is one of misperception, miscalculation or 
escalation of regional conflicts. To be more specific, 
miscalculation by any of the parties involved in watching the 
Taiwan Strait situation, by Taiwan, by the mainland, their 
perceptions of what we may or may not do, judgments about what 
anticipatory or preemptive actions may be necessary in order to 
deter one of the parties. The danger of that spinning out of 
control is real.
    With instability in so much of the world, the Middle East 
in particular, and the importance of energy resources in that 
region, it doesn't take a very sophisticated crystal ball to 
predict the possibility for localized conflict drawing in 
regional powers and then drawing in the United States. And the 
appeal of asymmetric methods to adversaries who cannot compete 
with us in terms of conventional military force means there is 
a threat to Americans everywhere.
    I invite my colleagues to respond.

  STATEMENT OF ROBERT CARDILLO, DEPUTY DIRECTOR FOR ANALYSIS, 
                  DEFENSE INTELLIGENCE AGENCY

    Mr. Cardillo. Sir, I will just add, from a Defense 
intelligence perspective, we would agree with Dr. Fingar's 
outline.
    I would specify, though, that if we have got an adversary 
who seeks to do harm to U.S. national security interests, the 
wrong way to go about it is a conventional approach, force on 
force. We have done a great deal to strengthen our capabilities 
along those more traditional lines.
    And that is what I think--that leads one to, with respect 
to what the greatest risk is, the asymmetric threat that Dr. 
Fingar touched on, and I will focus specifically on the cyber 
threat. Because of the way our forces are networked, the way we 
command and control them, the way we provide intelligence to 
them, the way we are connected, we have a great risk if that 
capability is at all threatened. And thus, that is the main 
reason why we are now increasing our focus, resources, effort 
and time on how to provide the intelligence required in order 
to combat a cyber threat.

   STATEMENT OF JOHN A. KRINGEN, DIRECTOR FOR INTELLIGENCE, 
                  CENTRAL INTELLIGENCE AGENCY

    Mr. Kringen. I would simply add, as an overlay, our concern 
about the continued proliferation of nuclear weapons. If you go 
back to 2002 and a potential confrontation between India and 
Pakistan that might have involved an exchange of nuclear 
weapons, as those weapons continue to proliferate, the concern 
is those regional scenarios that Tom has already described 
could very well turn into not only a conventional conflict but 
a nuclear conflict as well.
    The Chairman. Thank the gentlemen.
    Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman.
    Dr. Fingar, you think the terrorist threat is perhaps the 
most pressing right now. The 2,000 mile exposed border between 
the United States and Mexico, with a smuggling apparatus in 
northern Mexico that has been designed to accommodate large 
operations, smuggling both people and narcotics, a multi-
million-dollar-per-night industry, would that not accommodate 
people who wish to smuggle explosives, for example, at some 
point across the border? And do you consider that to be an 
exposure to our national security, that open border?
    Dr. Fingar. It certainly is an exposure, the ability of 
people, of goods, to cross the border illicitly. The very, very 
large volume of legal commerce and movement of people that 
occurs provides a situation in which it might be explosives, it 
might be terrorists, it might be biological agents. Many things 
could come in.
    In the written statement, we note that among the positive 
developments of the last year are the efforts by the new 
administration in Mexico, effective efforts, more effective 
than in recent memory, to address the kind of networks, the 
lawless networks, that exist in Northern Mexico, and the 
cooperation between our two countries to make the border less 
vulnerable. They have an interest in doing it for their 
domestic stability. They point out that arms coming from the 
north are a problem in their country as we point out that there 
are far more problems coming north than going south.
    But this is a very, very positive sign from the new 
administration.
    The Chairman. Do you think that we have now effectively 
enforced the border against the smuggling of people and 
narcotics?
    Dr. Fingar. My judgment would be no.
    Mr. Kringen. In fact, our estimate still would be that 
roughly 90 percent of the narcotics that come into the United 
States, cocaine in particular, come through Central America, 
Mexico.
    What I think Tom was trying to point out is that we see a 
level of engagement in that issue that is going to require long 
work, probably over a decade or more, to make that kind of 
progress. But for a while, some parts of those border areas, 
the government had less control, and they are trying to seize 
control of that now.
    Mr. Hunter. Well, I guess my question to you is, I have 
been here 26 years, and we have talked with a number of 
administrations about 10-year programs to control the border, 
but at this point there is not a--and we continue to work with 
Mexico, as we have for 100 years, but there is not a physical 
border control apparatus, that is fences, roads, lights, border 
control that physically keeps smugglers from moving illicit 
cargo across the border at will in this 2,000-mile area.
    So my question to you is, is that an exposure in terms of 
you said you thought that the biggest threat to the country was 
terrorism and that people are planning to at some point have an 
event in the American homeland. Is that 2,000-mile open border, 
and I am talking about physically open, not whether or not 
politicians are meeting and working on and designing 
cooperative ways to step the flow, but is the physically open 
border a threat to American security against the backdrop of 
terrorists who will at some point attempt to stage an operation 
in the United States? That is my question.
    Dr. Fingar. It is certainly a vulnerability, the open 
access of our nation, not just the southern border. The ability 
to move around easily, is a vulnerability.
    I will invite the National Intelligence Office for 
Terrorism to correct me if I am wrong, but I don't think we 
have had a terrorist, a known case of a terrorist entering, 
through Mexico.
    Mr. Hunter. No, we haven't, but we are talking about 
exposures----
    Dr. Fingar [continuing]. The exposure is real.
    Mr. Hunter. We all know we haven't had a terrorist attack 
since 9/11. On the other hand, you are telling us don't rest 
too easy, right?
    Dr. Fingar. That is correct.
    Mr. Hunter. Mr. Cardillo, did you have a comment on that?
    Mr. Cardillo. On the border, sir?
    Mr. Hunter. Yes.
    Mr. Cardillo. We would agree----
    Mr. Hunter. Whatever you indicated you were going to 
comment on.
    Mr. Cardillo. Sir, we would simply agree that that access 
is a vulnerability, and to the extent that there are people, 
nonstate actors and state actors that wish to do us harm, as 
long as that is open, it will increase the threat, yes, sir.
    Mr. Hunter. Okay. This second question, quickly, is this. 
Obviously, we have seen the Chinese demonstrate at least a 
threshold capability to take a satellite down, because they 
have done that.
    Could you give us a description of how difficult you think 
it would be for them to basically, if they wanted to, to 
disrupt our satellite capability? Could it be done fairly 
easily, within a day or two?
    Dr. Fingar. Having demonstrated the capability, as the 
Russians have demonstrated this capability several years ago, 
given our dependence on that overhead architecture, that it 
would not be that difficult to inflict significant serious 
damage to our capabilities over the couple of day period that 
you specified.
    Mr. Hunter. Okay. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Gentlemen, you heard the bells. We have a 
vote. It is a motion to adjourn. I am told it is only one vote, 
although your intelligence may be better than ours.
    We will be in recess until after the vote.
    [Recess.]
    Dr. Snyder [presiding]. Why don't we resume.
    Mr. Larsen, for five minutes.
    Mr. Larsen. Thank you, Mr. Chairman.
    Just some questions, I think. One, I was surprised and 
pleased to see a little bit more in the assessment on Central 
and South America this year. There is a lot more going on down 
there, obviously, and to see that reflected in the assessment, 
to help us, is helpful.
    I was struck, though, too, by the answers to the question 
that Mr. Skelton asked about what is the most likely. And I 
don't know if it was in any particular order, but I heard the 
terrorism threat, the asymmetric terrorism threat and 
asymmetric cyber security threat, and then weapons of mass 
destruction proliferation.
    Can you help me understand, do you have an assessment about 
what percentage of our Defense budget or Homeland Security 
budget, in total, if those are the most likely threats, what 
percentage of the budget that we produce each year actually are 
directed at that threat? And you can be very broad in your--
don't be conservative with your estimate.
    Dr. Fingar. Congressman, I don't think I could give you 
even a semi-informed guess. We are just the wrong people, 
unless you happen to know.
    Mr. Larsen. My concern is, I am not sure I could find that 
answer, either. I don't know that we--my point is, I don't know 
that we have fully aligned, say, your kind of assessment, with 
what our budget reflects. And hopefully we can use this 
assessment this year to better inform our Defense budget 
process.
    I noticed there have been some questions about--yes?
    Dr. Fingar. If I may, Congressman, first, we will be 
delighted that our assessment is helpful in the process. That 
is why we prepare them, to be helpful and provide insight. But 
your list had three of the four that we mentioned. I had 
miscalculation and conventional--I think it is important to 
note that there is a relationship between our conventional 
military superiority and the very small magnitude of 
conventional threats.
    I take, and I think your question about are we properly 
aligned given the diversity of threats, is a good one.
    Mr. Larsen. With regards to China, you mentioned--and 
Russia a little bit, too--but you talked about their abilities 
or capabilities. Have you looked at--does your assessment 
consider intent at all? Certainly not this written assessment 
that we have here, the unclassified, doesn't. But do you look 
at intent? I certainly agree with your assessment about 
capabilities, but with regards to China it seems more directed 
perhaps to a Taiwan scenario, and it may be help--that we stand 
off from a Taiwan scenario, although we may have a difference 
of opinion with the Chinese and what we would do there.
    Do you have an assessment about the intent to go along with 
the capability?
    Dr. Fingar. First, the general point is, yes, we look at 
intent as well as capability in the course of doing business as 
usual.
    If I understood the specific question with regard to 
China's intent, the Chinese have said publicly, and we would 
not challenge that, they need a peaceful international 
environment in order to continue the economic growth that is so 
critical to the legitimacy of the government and to raising the 
living standards and becoming a world power.
    They know that the United States is the yardstick against 
which to measure capabilities. So as they modernize their 
military, they are looking to the most demanding situation, and 
that happens to be us.
    But we certainly assess that the Chinese do not have 
current intent to take aggressive action against the United 
States.
    Mr. Cardillo. Can I add, if I could, though, we believe, 
from a Defense intelligence perspective, that motivation to the 
modernization that we talked about in the statement is to deny 
us access in that region. And so it is against our naval and 
air force presence and our ability to project power into it. 
And so that is behind their rationale for the modernization.
    Mr. Larsen. Largely, in a Taiwan scenario, or----
    Mr. Cardillo. Largely. Yes, sir.
    Mr. Larsen. Thank you.
    Dr. Snyder. Mr. McHugh, for five minutes.
    Mr. McHugh. Thank you, Mr. Chairman.
    Dr. Fingar, welcome. Gentlemen, appreciate you being here.
    Doctor, I appreciate your efforts to clarify the recent 
Iran NIE vis a vis nuclear weapons development. For those of us 
who had the opportunity to read the full report, it was pretty 
clear that they are still a significant threat, as you have 
suggested here today.
    However, I would like to try to get a better understanding, 
if I could, as to the findings of the recent NIE and some other 
intelligence service estimates, particularly the Israelis. When 
our NIE was first developed, some of us were told that from 
that time until now there would be efforts to get together with 
the Israelis, to go over the data, which thankfully we 
routinely do, and to try to see if there was some 
misunderstanding or a better way to come to common conclusions.
    According to the open media last week, the Israeli estimate 
suggests, in fact states, if we believe the press reports, that 
the Israelis feel that the Iranian nuclear weapons development 
program will produce an end-product by 2009.
    What is the status of our working with the Israelis to try 
to bring a common conclusion? And why do you think there is 
such a pretty marked difference between their findings and 
ours?
    Dr. Fingar. I want to make sure I don't start in a 
direction that would take this into a classified discussion, 
which we have to have.
    The starting point I think is we are not actually all that 
far apart. Our possible but very unlikely timeline is not very 
different, months, from the Israeli admittedly worst case, not 
judged most likely but worst case. But for reasons having to do 
with the nature of the threat, it is existential for them they 
worst case. We have a spectrum.
    Mr. McHugh. Is it fair to say that we have a difference of 
terminology, that when the Israelis say worst case, we would 
use the phrase low or moderate probability, or confidence, I 
should say? Because we don't assess to a worst case. We assess 
by probability and confidence levels.
    Dr. Fingar. Correct. The specific thing is what is the 
earliest date at which Iran could have enough fissile material 
for a weapon. The estimates judgment is possible but very 
unlikely by the end of 2009. More likely in the 2010-2015 
timeline.
    The Israelis, since it could be as early as the end of 
2009, that is what they have to take, for planning purposes.
    Mr. McHugh. Okay. Do we all agree that that is the 
assumption based upon the Iranians producing their own fissile 
material, but they could indeed, could they not, procure that 
from another source and skip a whole lot of years of 
development in that process?
    Dr. Fingar. Yes. If they procured it somewhere else, then 
they wouldn't have to produce it.
    The estimate judges that they have--they may have acquired 
a small amount, but have not acquired enough for a weapon. And 
even if acquiring enough for a weapon, that is not a weapons 
capability. But to demonstrate that they have got it, they 
would have to use it, test it, and then it is gone.
    So it is the centrifuge program, the fissile material 
production, that is the main variable in this.
    Mr. McHugh. And although they have technically stopped 
their covert enrichment activity, they are still overtly 
enriching fissile material through a supposed civilian 
organization, true, a civilian development program?
    Dr. Fingar. That is correct.
    Mr. McHugh. And for the purposes for creating a nuclear 
weapon, there is no difference, is there?
    Dr. Fingar. There is a difference in terms of the degree of 
enrichment, but the----
    Mr. McHugh. But the capacity----
    Dr. Fingar [continuing]. If you can enrich it for reactor-
grade fuel, the technical capability to enrich to weapons grade 
is not that much more demanding.
    Mr. McHugh. And their development of a delivery system of 
missile and multistage rockets continues?
    Dr. Fingar. Correct.
    Dr. Snyder. Mrs. Davis.
    Mr. McHugh. Thank you, Mr. Chairman. I didn't notice the 
light had changed. Thank you for reminding me.
    Dr. Snyder. Mrs. Davis, I will recognize you for five 
minutes, but if the buzzers go off and you prefer to come back 
and pick up one or two minutes after we get back, we will be 
glad to do that, too.
    Mrs. Davis for five minutes.
    Mrs. Davis of California. That is okay. I will be happy to 
finish up.
    Thank you, gentlemen, for being here. I appreciate it.
    I wanted to follow up a little bit on Mr. Larsen's question 
about the extent to which our budget priorities, or the threat 
assessments really inform our budget priorities. And I 
understand that you can't answer that, but I wonder whether you 
could comment on the extent to which that threat assessment 
informs or is supported by our national security strategies 
themselves, the structure and the role that even Congress could 
be playing now, as you see it. How aligned are they? And if 
not, what should we do about that?
    Dr. Fingar. It is an interesting, there is a feedback loop 
question that we have responsibility for providing the most 
objective and accurate description of the threat, global 
situation, evaluations that are not specifically threat-
focused, that inform the national strategy and policy 
documents. And some of what we do is responsive to questions 
and taskings that feed into, specifically into these various 
documents.
    We do not, and indeed it would be inappropriate for us, to 
evaluate U.S. policy in terms of does that policy, does that 
strategy, fit our view of the world. We can look at other guys, 
but not ourselves.
    Where there is interchange is through participation in 
principal's committee meetings, National Security Council, 
Homeland Security Council meetings, deputy's committees and the 
whole cascade of lower-level gatherings where intelligence 
community analysis, judgments, insights are a part of the 
discussion and the deliberation. But not a report card on the 
strategy.
    Do either of you want to add to that?
    Mrs. Davis of California. As you step back from that, 
though, I would think that in many ways that would be very 
frustrating, to not be able to weigh in in a way that would be 
helpful. And I am thinking as well Secretary Gates, as you 
know, recently has talked more about how we deal with some of 
the nonconventional threats and the extent to which we need to 
work closer, we call it interagency reform, but State 
Department, Pentagon, using the military in a different way, as 
one example, and how we develop a better capability in that 
area.
    Is that something you can comment on, whether the extent to 
which what you are seeing would mean that we do need to in fact 
change our, you know, whether it is budget priorities or the 
interface between the agencies that would provide greater 
information, intelligence, down the line, that we are not 
really working with today. And maybe the other way I am looking 
at it is where are the gaps, really, in some of this 
intelligence that could be helpful to you?
    Dr. Fingar. You have put your finger on one of the 
challenges of being an intelligence professional, specifically 
in terms of analysts, where we are Americans, we are concerned 
about sort of our Nation's policy priorities and so forth.
    But when functioning as intelligence analysts, we try very 
hard to inculcate ``you don't have an agenda, you don't have 
preferences.'' If we are not seen as being neutral, objective, 
honest, calling it as we see it, we are not useful. We would 
discredit ourselves from the beginning.
    So each individual analyst has to wrestle with this. 
Institutionally, we don't engage. Individually, there is the 
temptation to make it a little more clear, and people would see 
it. The way it has a positive impact, from my--is interaction 
with those we support, policy makers, military commanders, law 
enforcement, to be able to see questions that they should have 
asked, things that they don't seem to understand, that we might 
get an answer and provide an analytic judgment for them.
    Dr. Snyder. We will be in recess----
    Mrs. Davis of California. Thank you.
    Dr. Snyder [continuing]. Until the conclusion of the vote.
    I apologize, gentlemen.
    [Recess.]
    Dr. Snyder. If we have all three people here, we will 
resume.
    Dr. Gingrey for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you.
    Gentlemen, we appreciate, of course, very much you being 
here this morning for this most important hearing. And, of 
course, you understand we are running back and forth to the 
floor and voting on what you might say are dilatory type 
motions. And of course the reason for that is the difference in 
opinion in regard to the Protect America Act, which as you know 
on a short-term extension will expire this Saturday. The 
majority has passed a rule for a bill to present which would 
extend that another three weeks, another extension of the 
Protect America Act.
    This hearing, of course, is to inform the House Armed 
Services Committee about the intelligence threat, strategic 
threat, to our future, and I think it would be very apropos for 
all three of you to address the issue of what you think the 
effect would be if we continue to not pass a long-term Protect 
America Act.
    What benefit, first of all, has the act provided? And, as I 
say, what would be the effects, the adverse effects 
potentially, if the act did expire? And then, last, what are 
our most significant or challenging intelligence gaps and 
shortfalls?
    Dr. Fingar, I will start with you.
    Dr. Fingar. Dr. Gingrey, let me first make clear, we are 
analysts and not collectors on this. So for the question, in 
some ways we are the wrong ones.
    But as consumers of intelligence collection, I would simply 
note that we need all of the collection and all of the 
collection tools, particularly against these most difficult and 
most challenging threats. The legislation that is being debated 
deals with capabilities that are critical to our understanding 
of the terrorist problem.
    We don't have the capacity to go into detail and provide 
the kind of answer that you need in terms of consequences one 
way or another, so I would prefer to sort of take that question 
back to the people who can provide a better answer.
    Dr. Gingrey. Dr. Fingar, when you were asked earlier in the 
hearing about what you thought the biggest threat was, I think 
you said a global attack. Well, not a global attack, but a 
domestic attack by these extremists, these terrorists. And then 
I think Mr. Kringen, from the CIA's perspective, said that we 
need to worry about a nuclear attack, you know, whether it is 
the southern border or whatever mode of entry, something in a 
suitcase or a briefcase, in a laptop, whatever.
    So I think that the question is very, very apropos, and 
maybe Mr. Cardillo would address it and Mr. Kringen.
    Mr. Cardillo. Sir, I would simply echo what Tom has laid 
out. That is, we obtain many different sources of information 
that go into our analyses. This is a key component of those 
sources. To the extent that it did not or was inhibited or 
whatnot, it would have a direct effect on our ability to 
understand our adversaries' capabilities and intentions, which 
of course equates to the threat that we are talking about.
    Dr. Gingrey. Mr. Kringen--or Dr. Fingar, go ahead. I was 
going to specifically ask you what, as you see it, is the 
advantage of continuing what the Foreign Intelligence 
Surveillance Act (FISA) bill, the Protect America Act, as it is 
now passed and we hope that we will be able to continue 
indefinitely, to gather this information?
    Dr. Fingar. Let me approach this by the second part of the 
question you asked, which is on key gaps. Intentions. It is one 
we are continually asked, and I believe it is Mr. Larsen that 
raised, do we look at intentions, leadership intentions, 
nonstate actor intentions, particular groups of terrorists or 
particular groups of individuals communicating with one 
another. Are they seriously contemplating an action, wishing 
not to extrapolate from capabilities to intention or to equate 
propagandistic statement with genuine intent.
    So getting at the true intentions of groups, including 
terrorist groups, including all those who would use 
asymmetrical means, is a very high priority and a very 
important gap.
    The collection methodology, as I understand it, that would 
be covered by the Protect America Act, FISA revision, get at 
aspects of these critical gaps.
    Mr. Kringen. Yes, I think in particular the concern we 
always have is, we have some gross understanding of what I 
would call operational tempo (ops tempo) by terrorist groups. 
What we more typically lack is what I would call plans, and 
operational plans in particular. And being able to get into 
those communications capabilities, how they interact with one 
another, frankly, we need every tool that we can get, sir.
    Dr. Snyder. Mrs. Boyda for five minutes.
    Dr. Gingrey. Mr. Chairman, thank you very much.
    Ms. Boyda. Thank you very much.
    I am Mrs. Boyda, from Kansas, hello.
    I had some questions regarding just trends. And I am just 
interested, since we have you here, five years ago where would 
you have assessed the threat compared to today's threat versus 
five years ago? And if you could look forward, where do you 
think the threat is going? And I also wanted to ask another 
question about, you know, we hear sometimes that water issue, 
the climate change issues, are also going to start addressing 
globally some stability issues. Could you address those, 
please?
    Dr. Fingar. This is another one that is probably worth the 
Rorschach approach, the crystal ball.
    Five years in the past, having done these threat 
testimonies, it actually wasn't very different. Terrorism was 
at the top of the list. Because of our military superiority, 
there were not the kind of challenges after the demise of the 
Soviet Union that featured, but five years ago Saddam Hussein 
and his Iraq was of greater concern. And Afghanistan, Taliban, 
Taliban harboring al Qaeda would have been.
    Five years in the future, I think cyber threat is going to 
be more prominent, particularly links to nonstate actors. And 
the increasing technical capabilities of Russia and China will 
make the need for countermeasures for diplomacy to get at 
intention, to minimize the danger of miscalculation, would be 
at the top of my list.
    Mr. Kringen. Looking forward, I would add, as I think 
probably a major and perhaps even the major strategic 
challenge, what sometimes is referred to in the Washington 
community as the war of ideas, which is we do a reasonable job, 
and some days a very good job, of disrupting and dismantling 
terrorist organizations. But the supply of people wanting to 
join those organizations continues and in some areas continues 
to grow.
    And so changing the psychological and political environment 
allows people to want to join those kinds of groups. It is I 
believe at least a 40 to 50 year problem.
    Ms. Boyda. What factors do you see effecting that?
    Mr. Kringen. Well, some of it has to do with a variety of 
social factors that is very difficult for us to control. You 
know, alienation of Muslims from their population, their 
cultures in Europe, for example.
    But there are other parts about, you know, kind of 
explaining what al Qaeda's intent really is and turning kind of 
their hateful acts and getting a real appreciation of that into 
something that discourages people from wanting to go down those 
paths.
    I think of it in the context of what we had to do within 
the days of the Cold War, in which we had a U.S., in fact 
international bodies, that targeted kind of the soft side, 
shall we say, of that war. And many of the players involved in 
that were actually nongovernmental organizations (NGOs), labor 
unions and others.
    And I think over time we are going to need to build that 
kind of infrastructure because many times it is not going to be 
what the U.S. Government per se says, but the kind of 
interactions that they have through other people.
    Mr. Cardillo. I would only add to what my colleagues have 
said as we go forward, ma'am, is, to Congressman Hunter's 
question earlier, our access, freedom of access in space, and 
our dependence upon that freedom of access, should it be put at 
greater risk, will be a much greater interest of importance, 
for us to provide intelligence support to that.
    Dr. Fingar. By oversight, ma'am, I would note that 
proliferation concerns five years out, they will probably be in 
the same high position that they are today.
    Ms. Boyda. Are you talking about proliferation, actually, 
not only of weapons, but of fissile material that is out there?
    Dr. Fingar. I would say certainly fissile material and 
nuclear weapons capability.
    Ms. Boyda. What is already out there as well as new?
    Dr. Fingar. But I would also include the possibility of 
growth in biological warfare capabilities as examples of that 
kind of proliferation concern.
    Ms. Boyda. Thank you very much.
    I yield back.
    Dr. Snyder. Mr. Jones for five minutes.
    Mr. Jones. Mr. Chairman, thank you very much.
    And gentlemen, thank you very much for your presentation.
    I don't know if you have heard about the book written by 
Pat Buchanan, ``A Day of Reckoning.'' I would really suggest it 
as, being the intellectual men that you are, that you read it. 
And I would tell anybody in America to read it.
    This is going to lead to my question. Mr. Buchanan says in 
this book that a great nation that has to borrow money from 
foreign governments to pay its bills will not long be a great 
nation. I think it was Dr. Fingar that said to Mrs. Boyda's 
question increased capabilities of China and Russia.
    Our debt with China today is $387 billion. If you factor in 
Hong Kong, the debt to China and Hong Kong is $440 billion. As 
this nation continues to send jobs overseas--three million in 
seven years have gone overseas--this nation continues to borrow 
money from foreign governments to pay its bills, what in your 
professional opinion will this do to the national security of 
this country?
    Before I--one more statement, sir. I know what happened to 
the Soviet Union when they got in an arms race with President 
Reagan and this country. I know what happened to the Soviet 
Union when, after 10 years, they failed in Afghanistan. They 
might now be having an economic comeback, but it has taken 
many, many years, and they have suffered, the people have 
suffered greatly.
    From a national security standpoint, is the growing debt of 
this Nation, and borrowing money from countries that could at 
some time challenge America, like China, is this a national 
security concern of yours?
    Dr. Fingar. I will give you an answer, but let me first 
disqualify myself. The question is a serious one, requiring 
sort of a level of understanding of our financial system, the 
international finances system, that is beyond my capability.
    With that disqualifier, I worry about it, that the 
interconnected nature of the world makes it prudent for those 
who hold the money, those to whom we are indebted, to not 
disrupt it. So they don't have a complete freedom of action. 
Doing things that would cause the value of the dollar to 
decrease decreases the value of their holdings.
    Yet because money is obviously important to the choices 
that we can make as a government, policy choices, the things we 
can do, the things that we don't do, our ability to fund not 
just our national security requirements in an old, traditional 
military intelligence kind of narrative, but the broader 
definition that John Kringen was beginning to get to in his 
answer, that we can't afford to do all that we as a nation 
would like to do.
    It does make it imperative, and my final point, it seems to 
me, to do more things in cooperation with other nations. Burden 
sharing, sharing some of the costs, underscoring the mutual 
interests and common stake in working together to minimize the 
danger of the disparity and who owns what, who has the money, 
how might it be used. It was Mr. Hunter who mentioned money 
being used to purchase American firms and the concerns about 
technology. These are appropriate and serious concerns, sir.
    Do you want to add anything, John or Robert?
    Mr. Kringen. I think the only thing I would add, in 
addition, is a very specific point, which is over the years the 
U.S. Government has had considerable success in influencing 
other governments through the use of economic sanctions and 
financial activities. The degree to which that power is eroded 
and our capability to do that, means you are removing a key 
part of our national security toolkit.
    Mr. Jones. Let me, and then I will close, Mr. Chairman, 
just a couple more points.
    Last week we had Secretary Gates, and this is picking up on 
some of your comments. Secretary Gates was in here, going to 
Germany to try to convince the North Atlantic Treaty 
Organization (NATO) to help us in Afghanistan. That is a 
situation that is not in good shape at this point.
    In addition, I brought to his attention an article in USA 
Today that said that the allies that were with us when we went 
into Iraq, that the allies have not paid their part. They 
pledged $15.8 billion to help rebuild Iraq. They have only 
given $2.5 billion to build Iraq. This country has already 
obligated $26 billion. We have an additional $16 billion that 
we are going to add.
    I appreciate your comments and I think I understood that 
this, may I not put words in your mouth, but it could be an 
issue. But the Chinese are buying our Treasury notes at a rate 
we haven't seen in years, and there is nothing to say that the 
Chinese won't cash those Treasury notes in sooner than they 
mature, to take their money to put into a better investment.
    I know this is not your area of expertise, but I will say 
to my friends in Congress on both sides of the party, that I 
think I did acknowledge from you, without putting words in your 
mouth, that this could be an issue, and an issue of blackmail 
that could put this country, if we don't do something about it, 
could put us in a box without any doors to get out.
    Dr. Fingar. What I am about to say is not to sort of 
diminish the seriousness of the question, but in certain 
respects analogies with the period of the 1980's, when it was 
Japan that was buying our Treasury notes at unprecedented 
levels, and buying properties in the United States, and a 
number of questions were raised, that were not questioning 
whether Japan would become an adversary rather than an ally. It 
was sort of almost neutral on a political ground, was this kind 
of financial arrangement troubling.
    Mr. Jones. Dr. Fingar, just real quickly, my time is up----
    Dr. Snyder. Mr. Jones----
    Mr. Jones [continuing]. Japan in 1980 is no China of 2007, 
either, by the way, militarily speaking.
    Dr. Fingar. No. Absolutely.
    Mr. Jones. Thank you, sir.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Sestak for five minutes.
    Mr. Sestak. Thanks, Mr. Chairman.
    Can I follow up on Congressman Jones' question? I was 
actually going to ask something similar.
    I was going to bring it up because I was surprised you did 
not talk about the threat to economic security. The 
intelligence community always did with the Soviet Union. I can 
remember many classified studies when you looked at their 
economy. You looked at their ethnicity of even their army.
    To the point, you brought up--the only thing you brought up 
about China or Russia was their military. Specific case in 
point, you mentioned Taiwan and a concern. You remember 1996. 
We moved two aircraft carriers off there and their missiles 
didn't come down. You remember three months ago, where the 
Chinese, one person in the Chinese government, a fairly mid-
level, said we might put more money into the euro, and our 
stock market dropped 300 points.
    Today if something were to happen and they drop their $900 
billion in public debt they own, or the $1.33 trillion in U.S. 
reserves they have, that is more damaging to U.S. security, I 
would say, than potentially some of the military conflicts that 
are going on.
    And so I am surprised that there was not any economic 
security issues brought forth when you laid it down. I mean, 
Russia's military security, you mentioned military, toward that 
economic challenge, I find a great disparity, and I was glad he 
brought it up, because I do think that is a major issue.
    But since I have time, you can answer, if they will give me 
another five--I will come back again. The question I was taken 
with, sir, when you were here before, in the NIE, is Iran. The 
key line in that NIE for me was this, that showing that, and 
you used the words today, ``It was the response to 
international pressure that they stopped.'' And then your NIE 
went on to say, ``It shows that Iran does do its foreign policy 
analysis under a rational decision-making process.'' That was 
key.
    Do you think in your assessment, then, that we should be 
trying to deal more diplomatically with Iran, whether it is 
Iraq, Afghanistan, weapons of mass destruction, than we are 
today? And I asked you that question also the first time you 
were here that I had been on this panel with regards to your 
assessment that Iraq would spiral into chaos in 18 months if we 
withdrew in 18 months. And I asked you if we had dealt with 
Iran at that time, would it have made a difference. And you 
said, ``I would have to think that over, but it would make a 
difference.''
    So should we be approaching Iran differently than we do in 
view of that, I felt, quite insightful statement in your NIE?
    Dr. Fingar. Let me make two points and invite others to 
come in here, that I am very glad that you pointed to that 
important judgment of the estimate, that the wording used was 
that Iran employs a cost-benefit analysis. And we drew a 
contrast with earlier assessments of the intelligence community 
that had Iran determined to acquire nuclear weapons, almost 
without regard, that was an irreversible decision. That this 
estimate says they pulled back on the dimension of it, and they 
said it was in response to this international scrutiny and 
pressure.
    One thing that has changed since we were here with you last 
time is that we have begun in the embassy in Baghdad limited 
direct discussions with the Iranians on their involvement in 
Iraq. It is a mixed bag from my perspective. that these 
discussions do not yet appear to have produced the results that 
certainly I would have hoped for in terms of diminution of 
their provision of weaponry and involvement in Iraq.
    Whether one can extrapolate from that narrowly focused by 
design discussion to a larger, if Iran could be made less 
concerned about its security and feel less need for asymmetric 
ways to enhance its security, terrorism at one end, nukes at 
the other, might other things be possible. This estimate 
suggests yes.
    Dr. Snyder. Mr. Conaway for five minutes.
    Mr. Conaway. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. I apologize for only 
being here for part of what is going on, so if I repeat 
something----
    Three areas, one would be Saturday we had a Russian Tupolev 
bomber fly directly across the Nimitz. That hadn't happened 
much since the Cold War. Your assessment of what Putin was 
trying to do, if that was intentional, if he is overall trying 
his positions.
    Second would be, foreign investment in technology, U.S. 
technology companies, your role with the--I forgot the acronym 
of the committee that oversees that----
    Dr. Fingar. CFIUS.
    Mr. Conaway. CFIUS. Thank you.
    Your role with that, to make sure that they are not--or 
that we understand what happens when they make those 
investments, which are going to be difficult to not let happen, 
but we ought to know what those circumstances are.
    And third would be, if you have time, continued efforts 
within the European community to convince them how credible 
this threat of Islamic jihadism really is and if they are--it 
is in their best interest as well as ours for them to stay 
engaged and become more engaged with it.
    Dr. Fingar. Robert, do you want to take the first one? And 
then I will ask John Landry to take the CFIUS one.
    Mr. Cardillo. Sir, with respect to the flyover, we see that 
as a continuation of some activity that has picked back up in 
the last couple of years. These are out-of-area deployments, 
put their carrier in the Mediterranean not too long ago.
    In some ways, they are showpieces, sir, to make a statement 
that their military is on the way back and that they intend to 
use or project that power as part of their influence around the 
world.
    We don't see it as overly concerning in a sense of 
recovery, if you will, of that military force, but it is a 
trend that we obviously take great note of and great interest 
and apply a great deal of our analysis against it.
    Mr. Landry. Sir, with regard to the issue of CFIUS, we have 
a cell within my shop that essentially handles those, but we 
rely upon input from the remainder of the community.
    Last year we did about 160 of those what we call threat 
assessments. The one observation I would make is we do threats. 
The remainder of CFIUS, and we are not a voting member of 
CFIUS, we are an adviser, essentially conducts the 
vulnerability assessments and the risk assessments. We provide 
essentially expert assistance to them in terms of intelligence 
assistance, but don't conduct those ourselves.
    Mr. Conaway. Before you move on to that third one, would 
you recommend a greater role for your shop in the process, 
given the circumstances?
    Mr. Landry. Sir, we are very satisfied exactly with our 
role at the moment.
    Mr. Conaway. Okay. Thank you.
    Mr. Kringen. On the issue of cooperation with the European 
governments on terrorism, I recently traveled to Europe and met 
with four different governments. All those four governments are 
very serious about the challenge they have. In each case, they 
see the threat perhaps slightly differently. But in terms of 
the focus on the issue, the investment of resources, we have 
seen a continued expansion of their investments.
    Part of this is driven by real-world events in their own 
backyard. A Danish plot in the fall of last year, a German plot 
involving the Islamic Jihad Union (IJU) and, of course, 
continuing things going on in Spain and Italy.
    So I think there is a very good appreciation for it. There 
are, however, some constraints that have to do with the way in 
which their legal systems work and other things that in some 
cases make it more difficult to make them partners. But it is 
not a question of will, and by and large it is not a question 
of investment or capability. It is a question of how they can 
take the right action within the context of the legal regimes 
that they have.
    Mr. Conaway. Thank you, Mr. Chairman. I yield back.
    Dr. Snyder. Thank you.
    I am going to take my five minutes now, and then we will go 
to Mr. Lamborn.
    Dr. Gingrey, Dr. Fingar, was asking you questions about the 
FISA bill and the renewal, and as I understood what you were 
saying, is that you are currently satisfied with the 
intelligence gathering and the information you are getting, 
would not be very happy if this bill were to expire. And I join 
the chorus of those who think we need to continue the currently 
law.
    Am I hearing you correctly, that it would not be helpful to 
you all if we were to have a gap between the expiration of the 
current one and the start of the new one? Is that a fair 
statement?
    Dr. Fingar. Yes, it is. And I understand that we will be 
providing a classified statement for the record. One was not 
initially requested, but we will provide it. And in that 
statement, there are examples of how this collection has been 
helpful to us.
    Dr. Snyder. Well, and of course, this is not in your lane, 
but I saw the President's statement this morning, in which he 
said he would not accept a 21-day extension. And I am just very 
perplexed by that. I mean, your statement is very clear, that 
the current law is working, and sometimes, you know, the 
legislative process is not like trains and boats on a schedule, 
and so I don't know why there would be objection to a three-
week extension if we saw that we were not able to get this 
completed this week. And that is what I took from your previous 
statement.
    I wanted to ask a question about Iran. One of the issues 
that comes upon Iran is their discussions that they need a 
nuclear energy program, and then our response is yes, but you 
are a great oil country. But then they do have some fuel 
shortage issues going on now. Is that correct? Would you help 
me understand the relationship from the energy side between 
their desire for nuclear energy and why they are having some 
struggles right now with satisfying the natural gas, or 
whatever gasoline shortages that they have.
    Mr. Kringen. I will let Tom talk more about the nuclear 
side, but on the petroleum side, the issues really are refining 
capacity. In other words, it is not----
    Dr. Snyder. Did you say refining capacity?
    Mr. Kringen. Refining capacity. In other words, they have 
to purchase a lot of their refined products from overseas 
because they lack sufficient domestic capacity to do so, and 
that reflects years of underinvestment in that capability, as 
well as the fact that, frankly, put it this way, cheap gasoline 
is regarded as a national right in Iran, and therefore it is 
underpriced relative to what it could get on the world market, 
which means they consume more of it than they otherwise would.
    Dr. Snyder. How about natural gas as a commodity? Is that 
in abundant supply?
    Mr. Kringen. Just in general, yes, there are a number of 
programs that are, I would say, underdeveloped now, but they 
have a very aggressive program to develop more natural gas in 
the future, some of which involves foreign investors.
    Dr. Snyder. Any comments, Mr. Cardillo or Dr. Fingar?
    Mr. Cardillo. No, sir.
    Dr. Fingar. Let me just add two things. What the Iranians 
say, and I think this is to be taken mostly at face value, is 
that they have oil and they have gas, which is a primary source 
of foreign exchange earnings. It is what they have to export to 
earn the wherewithal to support this large and growing 
population.
    They also argue that nuclear power would diversify their 
portfolio. They have very real electricity needs.
    I think beyond the desire to maximize exports by having 
alternative sources of power generation, there is a political 
prestige, my words, not theirs, that if they are in compliance 
with the international control regimes for nuclear power, that 
they should be allowed to have it, like any other state in 
compliance.
    And I should hasten to add that they are not in compliance 
with the United Nations Security Council resolutions with 
respect to their centrifuge program.
    Dr. Snyder. I misspoke.
    Mr. Saxton is ahead of Mr. Lamborn.
    Mr. Saxton for five minutes.
    Mr. Saxton. Mr. Chairman, thank you.
    First of all, let me apologize for not having been here 
except for off and on all day. The votes and other things have 
kept some of us away, and this is obviously a very important 
hearing and one that we should all participate in and pay 
attention to.
    I am told while I wasn't here today you--someone asked a 
question about the most serious threat to the American homeland 
and the American citizens, and the reply was probably without a 
doubt terrorism.
    Recently I was doing some reading and I came across a book 
that talked about the mindset of insurgents and the mindset of 
terrorists and the mindset of al Qaeda relative to where they 
choose to make their activities felt. And very simply stated, 
the message was that they watch for opportunities where success 
is likely and act on those opportunities. And they also 
identify, my words, targets that are too difficult to attack 
with some degree of certainty and avoid those targets.
    That makes sense to me. And I just wondered if you could 
talk about that in the context of today's world events and what 
you see happening, perhaps in Afghanistan, what you see 
happening in Iraq, how Pakistan may play into that theory, if 
you will, of watching for opportunities and acting on those 
opportunities, watching for targets that are perhaps too 
difficult to attack that they might otherwise like to, and 
avoiding those kinds of targets.
    It is a very good question. I am going to invite Ted 
Gistaro, the National Intelligence Officer for Transnational 
Threats, to answer that.
    Mr. Gistaro. Sir, I would make two points. One, as Dr. 
Kringen pointed out, what we are seeing in Europe. Al Qaeda 
continually puts operatives and plots into the pipeline. I 
think they are constantly trying to conduct attacks. We have 
just been very fortunate, through the hard work of the United 
States government and our allies overseas, in stopping those 
attacks. But they are always putting plots into the pipeline.
    With regard to target selection, we know from detainee 
reporting that they do see the United States in particular as 
being a harder target, that the things that we have done 
offensively and defensively in this country make it more 
difficult for them to attack us here. Yet that has not stopped 
them from trying to do so.
    And I would go back to the 2006 summer aviation plot that 
we stopped a matter of weeks from occuring. Despite everything 
we have done to harden our aircraft and make aircraft plots 
more difficult, they remain fascinated with aviation as both a 
target and as a weapon. And they spend a lot of time thinking 
creatively about how to get even at the hardest targets.
    Mr. Kringen. If I could just add one point on the last, is 
that leads them, then, to an evolution of tactics and an 
ability to learn. We saw in Iraq the use of suicide bombers. We 
are now seeing that being applied within Afghanistan, and we 
are now seeing it being applied within Pakistan. So they have 
been able to learn and adjust their tactics.
    In Iraq, for example, what we have seen is a real shift 
from what used to be vehicle bombs to now individual bombers, 
and that is intended, frankly, to get around the security 
procedures that the coalition and the Iraqi government have put 
in place and to be able to go after those sorts of soft targets 
I think that were being alluded to in the book you referenced.
    Mr. Cardillo. I would just add, sir, a fine point on the 
learning piece of it. Suicide bombers, vehicle-borne, and now 
what we are seeing more and more in Iraq is quite dangerous to 
our deployed forces are house-borne Improvised Explosive 
Devices (IEDs). As we go through and clear after an operation, 
more and more we are seeing those now being booby-trapped and 
set for just that activity, to inhibit our ability to clear an 
area after an operation.
    Dr. Snyder. Mr. Lamborn for five minutes.
    Mr. Lamborn. Thank you.
    Let me call attention to Page 12, Mr. Fingar, of your 
annual threat assessment. And I see something in there that, 
frankly, troubles me. And this was also part of the NIE that 
came out, regarding the change of policy with Iran and its 
weaponization program, although apparently not its nuclear 
enrichment program in 2003. Because on the page before, on Page 
11, it does say that in the fall of 2003, according to this, 
Tehran halted its nuclear weapons design and weaponization 
activities. And then the first full paragraph on Page 12 says, 
``We judge with high confidence that the halt was directed 
primarily in response to increasing international scrutiny and 
pressure resulting from exposure of Iran's previously 
undeclared nuclear work.''
    And something else happened in 2003 which was very 
momentous next door, in Iraq, and that was the invasion of Iraq 
and the deposing of Saddam Hussein. And yet here that is not 
even mentioned as something that would have anything to do with 
their apparently withdrawing from some of their weaponization 
plans.
    Don't you think that that was a factor also?
    Dr. Fingar. We certainly think it was a factor. In the full 
classified NIE, the reason for the choice of the wording here 
is made clearer. But was the presence of U.S. troops next door 
in Iraq a factor? Was the Libyan decision to give up its 
nuclear program a factor? Was the fall of the Taliban, an 
adversary of Iran, in the east, a factor? Many things, the EU-3 
negotiations, building U.N. Security Council, that concern 
about isolation, being alone and dealing with us militarily or 
diplomatically, I think has to be brought into the equation, 
not simply troops next door, rumors or expectations of Iran was 
next. Was that a factor? It had to be. There were reasons we 
chose the wording that we did, which I would be happy to 
explain separately.
    Mr. Lamborn. Thanks for explaining that, and I am still 
somewhat perplexed that that was not given more prominence.
    My other question had to do with Syria. On Page 24 and 25, 
there are several items that are mentioned in connection with 
Syria, but one thing that is not mentioned is the bombing by 
Israel recently of a facility of some type in Syria, and there 
is talk that that is being resumed, that the construction and 
rebuilding of that facility is being resumed.
    In this particular setting, is there anything that you 
could add or elaborate on?
    Dr. Fingar. No, there is nothing we can talk about in this 
setting, Mr. Lamborn.
    Mr. Lamborn. Okay. Thank you. That concludes my time.
    I yield back, Mr. Chairman.
    Dr. Snyder. Thank you.
    Mr. Hunter.
    Mr. Hunter. Gentlemen, please accept my apologies for 
having to step out. It is just too bad we have had this hearing 
cut up into pieces today, because I think it is very important 
for us.
    Let me go to an issue I don't think you have addressed in 
the previous questions. If you have, my apologies. But China. 
The emergence of China as a military power, at some point 
approaching the status of superpower, with the F10 multi-role 
fighters that they are now producing in some numbers, I think 
the SU27 they are doing in co-production with the Russians, the 
hundred or so ballistic missiles they are fielding each year, 
most of them staged in the Taiwan area, the heralded knocking 
down of a satellite with the first demonstrated anti-satellite 
(ASAT) capability last January. But especially in the area of 
submarines.
    The Chinese now have 63 submarines to the best of our 
knowledge. They are out-producing us by between three and five 
a year, depending on whether you add their foreign military 
acquisitions of kilos from the Russians to their own 
production. I think their own production is about two-and-a-
half to three a year.
    They clearly are moving ahead in submarine development, and 
we are right now fielding, I believe we have got right at 49 
attack boats. We have laid down in this last analysis that 48 
is rock bottom. And yet at the rate that we are producing, we 
are going to be going for about 12 or 13 years, we will be 
fielding a force of about 40 submarines. So we are going way 
down. And you see an emerging submarine capability being 
developed by China.
    Any thoughts on that and any thoughts on guidance that you 
would give those that are shaping America's naval forces for 
the future?
    Mr. Cardillo. Sir, first of all, you said it very well. 
This is a growing serious threat, especially along the lines of 
their missile capability and their deployment patterns. And as 
I discussed earlier, we believe that is in concert with their 
intent to deny us access to the region in general, to Taiwan 
specifically.
    And so the submarine activity that you laid out, sir, is in 
sync with that overall intention. It is, as you probably know, 
of highest import to both our command in the Pacific and the 
U.S. Navy in particular, as to how they are going to counter 
that intent. And we work very diligently to provide assessments 
on how we can identify and exploit vulnerabilities in the 
Chinese build up, sir.
    Mr. Hunter. Would you recommend increasing the U.S. 
submarine force?
    Mr. Cardillo. Well, sir, I wouldn't feel qualified to say 
that directly. We provide our assessment of the threat to the 
Department. It gets fed into the navy's program. Yes, sir.
    Mr. Hunter. Fair enough.
    Thank you, Mr. Chairman. Appreciate it.
    Dr. Snyder. Mr. Franks for five minutes.
    Mr. Franks. Thank you, Mr. Chairman. I am glad I got here 
early.
    Mr. Fingar, I know that this has probably come up a number 
of times earlier in the hearing, and I just would like to 
suggest that the NIE report that we had on Iran, even though if 
one reads it carefully I think you come to a different 
conclusion than has been largely disseminated in the media, but 
I think it has caused us some pretty profound damage in terms 
of being able to deal with the potential of a nuclear Iran.
    And so I guess what I would like to ask you, sir, is given, 
just for clarity, even if it is redundant--perhaps I should put 
it this way. It is my perspective that, after reading the, that 
Iran, given the fact that they are continuing to enrich 
uranium, and that everybody agrees on that, our inspectors 
agree on that, that they are not reduced even by one day their 
potential of gaining a nuclear capability in terms of weapons 
at some point. That this report, even though their ostensible 
weapons program has been suspended, that that can be restarted 
at such a time when the fissile material development would be 
sufficient that they could continue forth, if they chose.
    So is it true that the NIE report, if read carefully, does 
not mean that Iran has been reduced in their capacity even by 
one day in gaining a nuclear weapons capability?
    Dr. Fingar. I wouldn't put it exactly as you did----
    Mr. Franks. How would you put it?
    Dr. Fingar [continuing]. In terms of the one day, because 
there are things that we don't know about the state of the 
program.
    But your larger point is accurate. They have the capacity 
to resume a weapons program with a decision that could be made 
at any time.
    The timelines that we have that are dependent on fissile 
material and estimates about how long it would take to convert 
that material, to have it for a device, something that will 
explode, would suggest that, yes, they are operating in a 
cushion where it might not make much difference.
    But I would like to take a few minutes of your time----
    Mr. Franks. I have got four.
    Dr. Fingar [continuing]. And ask my colleagues, because I 
gave a lengthy explanation. I think it is useful to hear the 
same kind of question approached from my colleagues.
    Mr. Franks. Okay.
    Mr. Kringen. I would concur with Tom's statement, which is 
I don't think we could say it literally would not change their 
ability to get a weapon within a day, but if you look----
    Mr. Franks. Could they not--forgive me----
    Mr. Kringen [continuing]. If you look at the estimated 
timelines for a nuclear capability, that is essentially the 
same.
    Mr. Franks. Unchanged.
    Mr. Kringen. Unchanged from before.
    The other factor I would highlight, and it goes back to the 
motivations for why we think they stopped their weaponization 
program, had to do with their feeling unde pressure at the 
time.
    Mr. Franks. The greatest army in the world had just marched 
into Iraq.
    Mr. Kringen. And there were all kinds of other pressures as 
well. The fact of the matter is, those pressures are now 
removed, and nothing we see or know says that they have 
foregone forever building this capability.
    Mr. Franks. Thank you.
    Mr. Cardillo. I would just add, sir, another underplayed 
piece of the way it was interpreted when it was released is 
that the decision to go nuclear, to have a weapon, is theirs. 
We believe they have the technical wherewithal to do so, 
pending that decision.
    And so in great measure, that timeline is theirs.
    Mr. Franks. Let me ask kind of two questions at once, 
because I am afraid I will run out of time. And you can each of 
you answer it. I will start with Mr. Fingar again.
    Is it possible that if Iran is able to develop a nuclear 
missile capability, in other words to develop their fissile 
material and to weaponize it to make it something that, to use 
your words, can explode, and put it on a missile, isn't it also 
possible that that technology can be translated fairly quickly 
into, like, a nuclear IED in laymen's terms, as something that 
could be an ideal terrorist weapon to bring into this country 
in ways that could effect us in a very profound sense? And what 
do you think our policy should be in America as far as allowing 
a nuclear Iran?
    Dr. Fingar. Again, I will be very brief so others can 
comment. That the ability to make a device that is deliverable 
by missile means you have got an ability to make something that 
is fairly small. And nuclear weapons, nuclear material, is very 
hard to detect at a distance. We don't have a capability to do 
that. So, yes, it would be very simple.
    The other point I would add, though, is a nuclear-armed 
Iran would be very destabilizing to the region. There is almost 
certain to be a response by some, perhaps many, of its 
neighbors.
    Dr. Snyder. Mr. Sestak, we will give you a bite of the 
apple, but it has got to be about a one-minute bite.
    Mr. Sestak. Thank you very much.
    Two quick questions. The first one: Is the government set 
up really to address cyberspace? We all know about the 
interagency process, and this is not an National Security 
Agency (NSA) issue alone. It kind of goes across the board. 
Just kind of a five second ``yes'' or ``no.''
    Dr. Fingar. This will be, you know, presented up here, I 
believe it is this week, by the director of National 
Intelligence. The White House has issued a directive, and there 
are rollout sessions.
    Mr. Sestak. It is very obvious Congress is not set up for 
it. I mean, you can't find a single bellybutton for cyberspace.
    Same question I had, very quickly, then, is I was a little 
confused, and it is probably my reading. You say the most 
dangerous threat is al Qaeda, the one that is over on the 
ungoverned borders. You say the most capable threat in al Qaeda 
is al Qaeda in Iraq (AQI). You only used the term homeland, 
coming against the homeland, with the one along the ungoverned 
borders. You even then go into your testimony and said, you 
know, I am concerned that as we kind of continue to squeeze 
AQI, that they may shift their resources over here, which is 
exactly the opposite of what some people said we were going to 
do. We were going to keep them over there so we don't send them 
here.
    It sounds to me as though the trend is that AQI is not 
dangerous to us right now, but it could be if we continue to 
squeeze them there. Did I read that correctly?
    Mr. Kringen. I would phrase it that way. What I would say 
is where we see al Qaeda in Iraq right now is, because it is 
under pressure, it is actually to a large degree focusing on 
internal Iraqi targets.
    The other issue is----
    Mr. Sestak. And that is what you mean, where it is most 
capable is right there?
    Mr. Kringen. Yes.
    Mr. Sestak. Not against us at the homeland.
    Mr. Kringen. Not against us. But also what we are seeing 
are some signs, and I wouldn't say large numbers----
    Mr. Sestak. You said about 100 people.
    Mr. Kringen. You are seeing some people who are kind of 
saying maybe this is not the place in which to engage in jihad 
and to be looking for opportunities outside of----
    Mr. Sestak. I understand. So it just kind of looks as 
though with that said, we have got to fight there in order to 
have al Qaeda here--our fighting there is actually going to be 
sending them over against us. If we are successful. If your 
trend bears out.
    Mr. Kringen. I am not sure I would agree with the 
conclusion.
    Mr. Sestak. You understand it?
    Mr. Kringen. I understand.
    Mr. Sestak. Thank you very much.
    Dr. Snyder. Thank you, Mr. Sestak.
    Thank you gentlemen.
    We have votes, you need to eat lunch. We appreciate your 
service. We appreciate your time with us today.
    The committee hearing is adjourned.
    [Whereupon, at 12:21 p.m., the committee was adjourned.]
?

=======================================================================

                           A P P E N D I X

                           February 13, 2008

=======================================================================



=====================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 13, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 45130.001
    
    [GRAPHIC] [TIFF OMITTED] 45130.002
    
    [GRAPHIC] [TIFF OMITTED] 45130.003
    
    [GRAPHIC] [TIFF OMITTED] 45130.004
    
    [GRAPHIC] [TIFF OMITTED] 45130.005
    
    [GRAPHIC] [TIFF OMITTED] 45130.006
    
    [GRAPHIC] [TIFF OMITTED] 45130.007
    
    [GRAPHIC] [TIFF OMITTED] 45130.008
    
    [GRAPHIC] [TIFF OMITTED] 45130.009
    
    [GRAPHIC] [TIFF OMITTED] 45130.010
    
    [GRAPHIC] [TIFF OMITTED] 45130.011
    
    [GRAPHIC] [TIFF OMITTED] 45130.012
    
    [GRAPHIC] [TIFF OMITTED] 45130.013
    
    [GRAPHIC] [TIFF OMITTED] 45130.014
    
    [GRAPHIC] [TIFF OMITTED] 45130.015
    
    [GRAPHIC] [TIFF OMITTED] 45130.016
    
    [GRAPHIC] [TIFF OMITTED] 45130.017
    
    [GRAPHIC] [TIFF OMITTED] 45130.018
    
    [GRAPHIC] [TIFF OMITTED] 45130.019
    
    [GRAPHIC] [TIFF OMITTED] 45130.020
    
    [GRAPHIC] [TIFF OMITTED] 45130.021
    
    [GRAPHIC] [TIFF OMITTED] 45130.022
    
    [GRAPHIC] [TIFF OMITTED] 45130.023
    
    [GRAPHIC] [TIFF OMITTED] 45130.024
    
    [GRAPHIC] [TIFF OMITTED] 45130.025
    
    [GRAPHIC] [TIFF OMITTED] 45130.026
    
    [GRAPHIC] [TIFF OMITTED] 45130.027
    
    [GRAPHIC] [TIFF OMITTED] 45130.028
    
    [GRAPHIC] [TIFF OMITTED] 45130.029
    
    [GRAPHIC] [TIFF OMITTED] 45130.030
    
    [GRAPHIC] [TIFF OMITTED] 45130.031
    
    [GRAPHIC] [TIFF OMITTED] 45130.032
    
    [GRAPHIC] [TIFF OMITTED] 45130.033
    
    [GRAPHIC] [TIFF OMITTED] 45130.034
    
    [GRAPHIC] [TIFF OMITTED] 45130.035
    
    [GRAPHIC] [TIFF OMITTED] 45130.036
    
    [GRAPHIC] [TIFF OMITTED] 45130.037
    
    [GRAPHIC] [TIFF OMITTED] 45130.038
    
    [GRAPHIC] [TIFF OMITTED] 45130.039
    
    [GRAPHIC] [TIFF OMITTED] 45130.040
    
    [GRAPHIC] [TIFF OMITTED] 45130.041
    
    [GRAPHIC] [TIFF OMITTED] 45130.042
    
    [GRAPHIC] [TIFF OMITTED] 45130.043
    
    [GRAPHIC] [TIFF OMITTED] 45130.044
    
    [GRAPHIC] [TIFF OMITTED] 45130.045
    
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 13, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. LAMBORN

    Mr. Lamborn. On pages 24 and 25 of your written testimony, he 
mentions several items in connection with Syria, but one thing that is 
not mentioned is the September 2007 bombing by Israel of a facility of 
some type in Syria. There is talk that Syria has resumed construction 
and rebuilding of that facility. Could you please characterize the 
nature of that Syrian facility at the time of the air strike and share 
whatever knowledge you have of Syrian nuclear capabilities or 
ambitions?
    Dr. Fingar. [The information referred to is classified.]

                                  <all>

</pre></body></html>
